No. 20A1

In the Supreme Court of the United States
GRETCHEN WHITMER, Governor of Michigan; JOCELYN BENSON, Secretary of
State of Michigan; and JONATHAN BRATER, Director of the Michigan Bureau of
Elections, in their official capacities,
v.

Defendants-Applicants.

SAWARIMEDIA LLC, DEBORAH PARKER, JUDY KELLOGG, and
PAUL ELY,
Plaintiff-Respondents,
ON APPLICATION (20A1) FOR A STAY OF INJUNCTION PENDING
APPEAL FROM THE UNITED STATES SIXTH CIRCUIT COURT OF APPEALS
AND THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN, SOUTHERN DIVISION
HONORABLE MATTHEW F. LEITMAN

PROOF OF SERVICE

I hereby certify that on July 15, 2020, I caused the PLAINTIFFSRESPONDENTS’ RESPONSE TO DEFENDANTS-APPLICANTS’ EMERGENCY
APPLICATION TO STAY THE PRELIMINARY INJUNCTION PENDING A
MERITS DECISION BY THE COURT OF APPEALS to be electronically filed
through the Supreme Court’s electronic filing system, which will serve a copy and
notice of filing on every attorney of record for Applicants-Defendants. I also caused to
be served via U.S. Mail postage prepaid, and by email the following parties:

1

Dana Nessel
Fadwa A. Hammoud
B. Eric Restuccia
Heather S. Meingast
P.O. Box 30212
Lansing, MI 48909
HammoudF1@michigan.gov
517-335-7628

Judy Kellogg, In Pro Per
2450 Krouse Road
Lot#337
Owosso, Michigan 48867
judy_kellogg95@gmail.com
989-277-3228

Deborah Parker, In Pro Per
21908 Gaulker Street
St. Clair Shores, MI 48080
alinosi@yahoo.com
313-550-2081

Paul Ely, In Pro Per
12646 N. Red Bud Trail
Buchanan, MI 49107
tlc.rgeenyard@yahoo.com
269-635-1611

July 15, 2020

/s/Denise Madewell
Denise Madewell
Legal Assistant to
Michael J. Steinberg

2

